CERTIFICATE OF SERVICE

I hereby certify that a copy of the Petition for a writ of certiorari was served on the
below counsel for all parties pursuant to Rule by first class mail and electronic mail
within three days of filing as required by S. Ct. Rule 29.

Matthew P. Reinhart I Assistant Attorney General
Maryland Office of the Attorney General
Educational Affairs Division
200 St. Paul Place, 17th Floor
Baltimore, Maryland 21202
Representing:

UNIVERSITY OF MARYLAND BALTIMORE AND
JOHN JENSEN, GLOSENDA NAVALES.

Dated: July 26, 2019.

Respectfully submitted,

Morris E. Fischer, Esq.
Counsel of Record
Morris E. Fischer, LLC
8720 Georgia Ave, Suite 210
Silver Spring, MD 20910-3614
(301) 328-7631 (Telephone)
(301) 328-7638 (Facsimile)
Morris@mfischerlaw.com
Counsel for Petitioner

